TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Office of Appeals Should Continue to
                   Strengthen and Reinforce Procedures for
                        Collection Due Process Cases



                                      September 20, 2006

                              Reference Number: 2006-10-123




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     DEPARTMENT OF THE TREASURY
                                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  September 20, 2006


 MEMORANDUM FOR CHIEF, APPEALS

 FROM:                            Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – The Office of Appeals Should Continue to
                                  Strengthen and Reinforce Procedures for Collection Due Process Cases
                                  (Audit # 200510037)

 This report presents the results of our annual statutory review of the Office of Appeals (Appeals)
 Collection Due Process (CDP). The overall objective of this review was to determine whether
 the Internal Revenue Service (IRS) complied with the provisions of 26 United States Code
 (U.S.C.) Sections (§§) 6320 and 63301 when taxpayers exercised their rights to appeal the filing
 of a lien or a notice of intent to levy. The Treasury Inspector General for Tax Administration is
 required to determine annually whether the IRS complied with the legal guidelines and
 procedures for the filing of a notice of lien or a notice of intent to levy and the right of the
 taxpayer to appeal.2

 Impact on the Taxpayer
 The CDP was designed to allow taxpayers a process for exercising their right to appeal when the
 IRS files a lien or a notice of intent to levy against them. However, procedures for the CDP have
 been inconsistent and incomplete, resulting in incorrectly categorized cases, failure to suspend
 collection action, and incomplete documentation. Consequently, taxpayers may not receive their
 full rights during an appeal hearing.




 1
     26 U.S.C. §§ 6320 and 6330 (Supp. III 2000).
 2
     26 U.S.C. § 7803(d)(1)(A)(iii) and (iv) (Supp. III 2000).
I                          The W i c e of Appea/s Should Continue to Strengthen and
1                 I
                           Reinforce Procedures for Co//ectionDue Process Cases
         - --


    Synopsis
    Overall, we could not determine whether the IRS complied with legal guidelines and required
    procedures to protect taxpayer rights because many of the case files or case documentation could
    not be located. However, we did identify instances in which incorrect procedures were followed,
    resulting in potential taxpayer burden. Specifically, we determined requests for CDP hearings or
    Equivalent Hearings (EH) were misclassified and some taxpayers received the wrong type of
    hearing, there were errors in suspension of collection activity during a hearing, and some cases
    did not have documentation of hearing officers' impartiality and support for decision making.
    A significant portion of the CDP and EH closed case files we requested could not be located or
    were missing key documents. Thus, we could not determine whether all Appeals actions were
    appropriate. In certain instances, a missing or incomplete case file could affect the taxpayer in
    the future because if the taxpayer has a change in circumstances that affects the Appeals
    determination, or if the Collection function does not properly carry out an Appeals
    determination, the case can be reopened in Appeals. In that situation, if the original case file
    could not be located, comparable documentation would again have to be gathered, potentially
    resulting in additional taxpayer burden. Similar results were included in our previous reportY3
    but the Appeals' planned corrective actions were not scheduled to be completed until
    December 2005, which was subsequent to the period we reviewed in this audit. Therefore, we
    are making no recommendations in this report regarding case files that could not be located or
    were missing key documents.
    In addition, we identified a few situations in which taxpayers were not granted the appropriate
    type of hearing (CDP versus EH). During a CDP hearing, collection action is suspended and the
    taxpayer has the right to judicial review. For an EH hearing, there is no suspension of collection
    action or right to judicial review. The process used by Appeals to classify a hearing request as a
    CDP or EH was not always consistent with information provided to the taxpayer in the levy
    notification letter. Appeals would sometimes use one set of dates to determine when a hearing
    request would be considered timely, while the taxpayer was provided a different set of dates.




    of a hearing request were not consistent with other written procedures. These various situations
    resulted in some cases being misclassified as CDP when the taxpayers were only qualified for an
    EH or vice versa. Misclassification causes inequitable application of taxpayer rights, including


     The Ofice of Appeals Should Strengthen andReznforce Procedzrresfor Collectron Dzre Process Cases (Reference
    Number 2005-10-138, dated September 2005).
                                                                                                                   2
                           The Office of Appeals Should Continue to Strengthen and
                            Reinforce Procedures for Collection Due Process Cases



the failure to suspend collection action and failure to provide the right to judicial review if a CDP
hearing is not appropriately granted.
Furthermore, we identified a number of procedural violations. In some instances, hearing
officers4 did not comply with the procedural and legal requirement to document and support
whether they had any prior involvement with the unpaid tax. Additionally, Appeals CDP case
files did not always contain documentation that Appeals verified the timeliness of the hearing
request or the date on which suspension of collection activity should begin. Specific computer
codes are used to indicate the suspension of collection activity and to recalculate the expiration
date for the collection statute. When these codes are missing, collection activity may continue
inappropriately, and the expiration date for the collection statute will not be recalculated. Also,
although the Determination and Decision Letters met minimum requirements, several case files
did not contain support for some of the statements in the Letters.

Recommendations
We recommended the Chief, Appeals, ensure the process for determining the timeliness of CDP
requests is consistent with the information provided to taxpayers in the levy notification letter
and the examples in the Appeals guide are consistent and clear. Hearing officers should be
reminded of these procedures and managers should enforce these procedures when reviewing
cases. We also recommended the Chief, Appeals, emphasize the importance of case files
containing evidence to support the impartiality statement of the assigned hearing officer; ensure
hearing officers verify suspension of collection activity at the beginning of CDP hearings,
provide support for this action in case files, and ensure Appeals has a process to immediately
correct taxpayers’ accounts when hearing officers identify missing computer coding for
suspension of collection activity; and develop a process to ensure all actions taken by hearing
officers to support decisions and verifications made throughout the hearing process are clearly
documented.

Response
IRS management agreed with all of our recommendations. Appeals will revise its written
guidance to include a consistent process to determine timeliness, provide additional examples
and clearer documentation requirements, and include the requirement to document all actions
taken to support decisions and verifications contained in letters to taxpayers. In addition,
Appeals plans to revise the CDP template to include a prompt to ensure collection activity is
properly suspended on taxpayers’ accounts. Appeals also agreed to implement a procedure to
immediately correct taxpayer accounts when hearing officers identify missing computer coding


4
    Hearing officers are either Appeals officers or settlement officers.
                                                                                                      3
                    The Office of Appeals Should Continue to Strengthen and
                     Reinforce Procedures for Collection Due Process Cases



for suspension of collection activity. Furthermore, hearing officers will receive training for these
revisions. Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                                   4
                           The Office of Appeals Should Continue to Strengthen and
                            Reinforce Procedures for Collection Due Process Cases




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Some Office of Appeals Case Files Could Not Be Located
          or Were Missing Key Documents.................................................................Page 4
          Classification of Hearing Requests Was Not Always Correct......................Page 6
                    Recommendation 1:........................................................Page 8

          Impartiality Statements Were Not Always Provided or
          Supported As Required .................................................................................Page 8
                    Recommendation 2:........................................................Page 10

          Procedures for Suspension of Collection Activity Should
          Continue to Be Strengthened to Ensure Taxpayer Rights
          Are Protected ................................................................................................Page 10
                    Recommendation 3:........................................................Page 11

          Determination and Decision Letters Met Minimum
          Requirements but Need Further Support in Case Files.................................Page 12
                    Recommendation 4:........................................................Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Outcome Measures...............................................................Page 20
          Appendix V – Management’s Response to the Draft Report .......................Page 25
          The Office of Appeals Should Continue to Strengthen and
           Reinforce Procedures for Collection Due Process Cases




                      Abbreviations

ACDS               Appeals Centralized Database System
Appeals            Office of Appeals
CDP                Collection Due Process
C.F.R.             Code of Federal Regulations
EH                 Equivalent Hearing
I.R.C.             Internal Revenue Code
IRS                Internal Revenue Service
TIGTA              Treasury Inspector General for Tax Administration
U.S.C.             United States Code
                       The Office of Appeals Should Continue to Strengthen and
                        Reinforce Procedures for Collection Due Process Cases




                                           Background

When initial contacts by the Internal Revenue Service (IRS) do not result in the successful
collection of unpaid tax, the IRS has the authority to attach a claim, commonly referred to as a
lien, to the taxpayer’s assets.1 The IRS also has the authority to work directly with financial
institutions and other parties to obtain funds owed by a taxpayer; this is commonly referred to as
a levy.2
In February 1996, the IRS established procedures that allowed taxpayers to appeal the filing of
liens and proposed or actual levies. However, this protection was not mandated by law. If the
IRS did not follow its procedures, there was no remedy available to the taxpayer. Based on
concerns that taxpayers were not always provided adequate notice and that appeal rights were
needed for liens and levies, the IRS Restructuring and Reform Act of 1998 codified this
protection into law.3
The IRS is required to notify taxpayers in writing that a lien has been filed or that it intends to
levy.4 A taxpayer is allowed to appeal the lien or levy action through the Collection Due Process
(CDP) by filing a hearing request.5 This hearing request must be received within 30 calendar
days plus 5 business days of the filing of the lien or within 30 calendar days of the date of the
levy notice.6 If a taxpayer’s hearing request is submitted on time, the IRS will suspend all tax
collection efforts and the Office of Appeals (Appeals) will provide the taxpayer a CDP hearing,
after which the taxpayer has the right to a judicial review if the taxpayer does not agree with the
Appeals decision. If a taxpayer’s hearing request is not submitted timely, Appeals will provide
the taxpayer an Equivalent Hearing (EH) and consider the same issues as in a CDP hearing;
however, collection action is not required to be suspended and the taxpayer does not have the
right to a judicial review.
Taxpayers are entitled to one hearing per tax period7 for which a notice of lien or intent to levy
has been issued. The hearing should be conducted by an Appeals officer or settlement officer



1
  26 United States Code (U.S.C.) Section (§) 6321 (Supp. III 2000).
2
  26 U.S.C. § 6331 (Supp. III 2000).
3
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
4
  26 U.S.C. §§ 6320(a) and 6330(a) (Supp. III 2000) and Code of Federal Regulations (C.F.R.) §§ 301.6320-1 and
301.6330-1 (2002).
5
  Taxpayers can use Request for a Collection Due Process Hearing (Form 12153) or other similar written
communication to request a CDP hearing.
6
  26 U.S.C. §§ 6320 and 6330 (Supp. III 2000).
7
  The tax period is a measure of time for which a tax return is required to be filed.
                                                                                                        Page 1
                       The Office of Appeals Should Continue to Strengthen and
                        Reinforce Procedures for Collection Due Process Cases



(hearing officer) who had no prior involvement with the unpaid tax.8 During the hearing, the
hearing officer must verify whether the requirements of all applicable laws or administrative
procedures related to the lien or levy were met. The hearing officer must also address any issues
the taxpayer may raise relevant to the unpaid tax or the proposed lien or levy, such as whether
the taxpayer is an innocent spouse; determine if collection actions were appropriate; and decide
if other collection alternatives would facilitate the payment of the tax. The hearing officer must
determine whether the proposed collection action balances efficient tax collection with the
taxpayer’s legitimate concerns. The taxpayer may not raise an issue that was considered at a
prior administrative or judicial hearing if the taxpayer participated meaningfully in the prior
proceeding.
At the conclusion of a hearing, Appeals provides the taxpayer a letter that presents the hearing
officer’s findings, agreements reached with the taxpayer, any relief provided to the taxpayer, and
any actions the taxpayer and/or the IRS are required to take. For a CDP case, the taxpayer
receives either a Determination Letter, which provides an explanation of the right to judicial
review;9 or a Summary Notice of Determination, which is used when the taxpayer agrees with
Appeals, waives the right to judicial review, and waives the suspension of levy action.10 For an
EH case, the taxpayer receives a Decision Letter.11
The CDP or EH case is reviewed by the hearing officer’s manager at the completion of the case,
to evaluate whether the hearing officer followed all requirements and procedures. In addition,
the Appeals Quality Measurement System evaluates the quality of casework nationwide by
selecting a national sample. The Appeals Quality Measurement System reported a 77 percent
overall compliance rate for CDP/EH cases completed in Fiscal Year 2005. This is down from
80 percent and 88 percent for cases completed in Fiscal Years 2004 and 2003, respectively.
After Appeals has made a determination on a case, if the taxpayer has a change in circumstances
that affects the Appeals determination or if the Collection function does not carry out the
determination, the taxpayer has the right to return to Appeals. The taxpayer has this right as long
as all administrative remedies have been exhausted. The Appeals office that made the original
determination generally retains jurisdiction over the case.12
The Treasury Inspector General for Tax Administration (TIGTA) is required to determine
annually whether the IRS complied with legal guidelines and procedures for the filing of a notice
of lien or a notice of intent to levy and the right of the taxpayer to appeal.13 The TIGTA has

8
  The taxpayer may waive this requirement.
9
  Notice of Determination Concerning Collection Action(s) Under I.R.C. Section 6320 and/or I.R.C. 6330
(Letter 3193/3194).
10
   Summary Notice of Determination, Waiver of Right to Judicial Review of a Collection Due Process
Determination, and Waiver of Suspension of Levy Action (Form 12257).
11
   Decision Letter Concerning Equivalent Hearing Under Section 6320 and/or 6330 of the I,R.C. (Letter 3210).
12
   C.F.R. §§ 301.6320-1(h) and 301.6330-1(h) (2002).
13
   26 U.S.C. § 7803(d)(1)(A)(iii) and (iv) (Supp. III 2000).
                                                                                                         Page 2
                      The Office of Appeals Should Continue to Strengthen and
                       Reinforce Procedures for Collection Due Process Cases



divided this requirement into three statutory audits: one to review the filing of a notice of tax
lien;14 one to review the intent to levy;15 and one to review the rights of taxpayers to appeal these
issues,16 which is the focus of this report. This is the sixth annual audit of this area conducted by
the TIGTA.
The previous TIGTA report on the Appeals process was issued in September 2005, and a
majority of related IRS corrective actions were planned to be implemented by
December 31, 2005.17 The scope of this year’s audit covered CDP and EH cases closed between
March 1 and July 31, 2005. Because these cases were closed prior to the completion of
corrective actions by the IRS, we did not make recommendations for findings that repeat those
from the previous audit.
This review was performed at the IRS National Headquarters in the Office of the Chief, Appeals,
in Washington, D.C., during the period August 2005 through March 2006. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




14
   26 U.S.C. § 6320(a) (Supp. III 2000).
15
   26 U.S.C. § 6330(a) (Supp. III 2000).
16
   26 U.S.C. §§ 6320(b) and (c) and 26 U.S.C. §§ 6330(b) and (c) (Supp. III 2000).
17
   The Office of Appeals Should Strengthen and Reinforce Procedures for Collection Due Process Cases (Reference
Number 2005-10-138, dated September 2005). One corrective action, the implementation of an Electronic Filing
System, was not planned to be completed until December 2007.
                                                                                                        Page 3
                         The Office of Appeals Should Continue to Strengthen and
                          Reinforce Procedures for Collection Due Process Cases




                                       Results of Review

Some Office of Appeals Case Files Could Not Be Located or Were
Missing Key Documents
Appeals procedures and guidelines included a list of documents required to be in a closed CDP
or EH case file. These documents should be retained until the collection statute date expires for
the tax period, generally 10 years from the date the tax was assessed. There were four key
documents in the required list:
       •   Taxpayer’s complete hearing request, including any applicable attachments, used to show
           why the taxpayer was seeking assistance from Appeals.
       •   Postmark from the envelope the taxpayer’s hearing request was mailed in, used in
           determining the timeliness of the taxpayer’s hearing request.
       •   Notification of levy or lien, used in determining the timeliness of the taxpayer’s hearing
           request.
       •   Appeals hearing results provided to the taxpayer. This can be a copy of the
           Determination Letter or Summary Notice of Determination for a CDP case or the
           Decision Letter for an EH case. If the taxpayer decides to withdraw the hearing request,
           the signed Withdrawal18 should be in the closed case file in place of the hearing results
           letter.
We selected statistical samples of 80 cases each from the 8,089 CDP cases and 3,628 EH cases
closed by Appeals between March 1 and July 31, 2005. Appeals could not locate 5 of the
80 CDP and 8 of the 80 EH case files requested for our samples. In addition, 61 of the
75 (81 percent) CDP and 62 of the 72 (86 percent) EH case files we received were missing at
least 1 of the key documents needed to support and present Appeals’ hearing results.
Consequently, we could not verify if all actions were appropriate and met the requirements of the
law for cases not provided or missing key documents. Table 1 summarizes the number of
Appeals CDP and EH case files in our sample that were not provided or were missing key
documents, as well as the projected estimates for the 5-month period of our review.




18
     Withdrawal of Request for Collection Due Process Hearing (Form 12256).
                                                                                                Page 4
                           The Office of Appeals Should Continue to Strengthen and
                            Reinforce Procedures for Collection Due Process Cases



            Table 1: Appeals Case Files Not Provided or Missing Key Documents
                                                   Sample of 80 CDP Cases From                 Sample of 80 EH Cases From
             Reason Case Could Not Be
                                                      a Population of 8,089                       a Population of 3,628
     Verified for Meeting All Laws, Guidelines,
                  and Procedures                    Sample               Estimate of            Sample              Estimate of
                                                   Exceptions            Population            Exceptions           Population

      Case file not provided                                5                  506                      8                  363
      Case file received did not include
                                                           14                1,416                    21                   953
      complete hearing request
      Case file received did not include
                                                           44                4,449                    47                2,132
      envelope used to mail hearing request
      Case file received did not include
                                                           40                4,045                    55                2,495
      notification of levy or lien
      Case file received did not include
      documentation of Appeals’                             2                  203                      7                  318
      determination
              Total case files not provided
                                                         66*               6,674*                    70*               3,175*
                or missing key documents
                                                  (*) Column does not total because some case files were missing more than one of
                                                  the four key documents.
Source: TIGTA analysis of samples of 80 CDP and 80 EH cases closed by Appeals between March 1 and
July 31, 2005.

Appeals case files not located or missing key documents could affect taxpayers. If a taxpayer
has a change in circumstances that affects an Appeals determination, or if the Collection function
does not properly carry out an Appeals determination, the case can return to Appeals.
Documents similar to those missing from the case file would then have to be gathered or
regenerated for Appeals to effectively resolve the case. This delay could burden a taxpayer by
affecting the timely resolution of the case.
Appeals responded that physical storage limitations, low staffing levels, and lack of
understanding of procedures contributed to its inability to locate requested case files and the
absence of documents in the case files. Similar results were included in our previous report and,
in response, Appeals’ planned corrective actions included:
       •    Centralizing the closing and retention of CDP and EH case files to two campus19
            locations.
       •    Reminding employees of the need to retain closed case files and what documents need to
            be maintained in those files.


19
  The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                                            Page 5
                         The Offce of Appeals Should Continue to Strengthen and
                         Reinforce Procedures for Collection Due Process Cases



            Distributing a check sheet with instructions for case file contents to be used in every CDP
            and EH case.
    These corrective actions were not scheduled to be completed until December 2005, which was
    subsequent to completion of this year's audit period. Therefore, we are making no
    recommendations in this report for case files that could not be located or were missing key
    documents. Additionally, Appeals management responded to our previous report that they were
    working on Electronic Case File programming and equipment for the creation of paperless files
    by December 2007, to minimize physical storage and potentially decrease the number of case
    files that can not be located or are missing key documents.

    Classification of Hearing Requests Was Not Always Correct
    If a taxpayer's hearing request is filed more than 30 calendar days after the date of a levy notice
    or more than 30 calendar days plus 5 business days after the filing of a lien, Appeals will provide
    the taxpayer an EH. This type of hearing is similar to a CDP hearing, but the IRS is not required
    to suspend collection activity while the EH is being conducted and the taxpayer does not have
    the right to a judicial review. However, the procedures used by Appeals to classify a hearing
    request based on its received date were inconsistent with information provided to the taxpayer
    and should be clarified. The incorrect classification of hearing requests could result in
    inequitable application of protection for taxpayers' CDP rights.

    Appeals used a date other than the levv notification date provided to the taxpayer
    to determine timeliness
    In most cases, the IRS mails the levy notification letter prior to the date on the letter to ensure the
    taxpayer receives it with the full 30 calendar days in which to appeal. The levy notification letter
    instructs the taxpayer to request a CDP hearing within 30 calendar days from the date of the
    letter. However, the Appeals procedure is to start the 30-day time period using the mailing date
    of the levy letter (i.e., when the notification was sent to the taxpayer). This practice contradicts
    the instructions provided to the taxpayer and the IRS' intent in mailing the letter early.
    Although some hearing requests are submitted substantially past the 30-day time period and
    would not be affected by the Appeals
                                      --    classification procedure, others could be misclassified as
    EH cases, thus preventing taxpayers fiom receiving rights provided during a CDP case. We

Y
    i d e n t i f i e d r j i n our sample of 80 EH cases.  r-..-                                        1

'fhearing request.
           ]but Table 2 shows how the different dates affected the timeliness determination for this




                                                                                                   Page 6
                            The Office of Appeals Should Continue to Strengthen and
,
                            Reinibrce Procedures for Collection Due Process Cases




                  Table 2: Effect of Different Dates for Timeliness Determination

                                                                                                  Timeliness
                                                  Date of Notice         Received Date
                  Date of Notice                                                               Determination for
                                                  Plus 30 Days        of Hearing Request
                                                                                               Hearing Reauest




    Source: TIGTA analysis ofsample of 80 EH cases closed by Appeals between March I and July 31, 2005.
    1




                                     -                                         1
                                                                        We estimated 46 cases
                                 --
     during our sample period were misclassified as EH cases and could have affected the rights of
     the taxpayers. To ensure taxpayer rights are protected, Appeals should use the same information
     provided to taxpayers when classifying hearing requests.

     Procedures can be clarified and enforced to ensure equitable application when
     determining timeliness of hear in^ requests
     The Appeals procedure to classify hearing requests is to use the IRS received stamp date on the
     hearing request, unless it is past the established deadline. If the received stamp date is past the
     deadline, the postmark date on the envelope is then used to determine timeliness. In response to
     our previous audit report, in January 2006, Appeals provided to hearing officers a guide that
     contained 22 examples covering various situations. We reviewed each of the examples and
     determined several contained timeliness determinations that did not follow Appeals' established
     procedures. We brought this to the attention of Appeals officials, who made immediate changes
     to the guide. The changes clarified the examples and brought them into compliance with
     Appeals procedures.
     Although Appeals is actively reviewing and updating procedures for classification of hearing




     the IRS Collection hnction to a taxpayer's account when a hearing request is received timely, to

                                                                                                          Page 7
                     The Office of Appeals Should Continue to Strengthen and
                     Reinforce Procedures for Collection Due Process Cases




6_I
  -
           ---    --                     --   -                 -- -
                                                                   .        1
              However, this is inequitable treatment of hearing rcqucsts and crcatcs thc potential
  for the IRS to miss an opportunity to collect tax revenue during an Appeals hearing for an EH
  case. We estimated 102 cases during our sample period were misclassified as CDP cases.
  Appeals should remind employees and managers of the procedures to use direct evidence to
  determine timeliness of a hearing request.

Recommendation
Recommendation 9: The Chief, Appeals, should review current procedures to ensure the
process for determining the timeliness of CDP requests is consistent with the information
provided to taxpayers and the templates are consistent and clearly indicate the dates to be used in
the timeliness determination. Hearing oficers should be reminded of these procedures, and
managers should enforce these procedures when reviewing cases.
    Manaoement's Response: IRS management agreed with the recommendation and will
    revise their written guidance to include a consistent process to determine timeliness as well
    as update their templates. In addition, hearing officers will receive training for the revisions.

Impartiality Statements Were Not Always Provided or Supported As
Required
CDP and EH hearings must be conducted by a hearing officer with no prior involvement
regarding the unpaid tax, unless the taxpayer waives this requirement. To comply with this
requirement, Appeals procedures required CDP Determination Letters and EH Decision Letters
to include an impartiality statement. Additionally, in the case of a Summary Notice of
Determination, the impartiality statement should be included in either the Notice itself, the
Appeals Transmittal and Case Memo (Form 5402), or a more detailed case memorandum, if
included in the file.
Appeals issued guides, including one updated in February 2002, to help hearing officers in
writing Determination and Decision Letters. The guides contained templates for the Letters,
which included impartiality statements. However, impartiality statements were not always

                                                                                              Page 8
                        The Office of Appeals Should Continue to Strengthen and
                         Reinforce Procedures for Collection Due Process Cases



included in the Letters provided to taxpayers. Of the 43 CDP Determination Letters and
13 CDP Summary Notices of Determination we reviewed, 7 did not have an impartiality
statement.20 Of the 53 EH Decision Letters we reviewed, 4 did not have an impartiality
statement.21 Based on our samples, we estimated that 708 CDP and 182 EH cases closed by
Appeals between March 1 and July 31, 2005, did not contain an impartiality statement in the
Letter provided to the taxpayer. Additionally, we did not find supporting evidence for any of the
impartiality statements made in the 49 CDP and 49 EH cases that contained impartiality
statements in the Letters provided to the taxpayers. Based on our samples, we estimated that
4,955 CDP and 2,223 EH cases closed by Appeals between March 1 and July 31, 2005, did not
contain supporting evidence for the hearing officers’ impartiality statements.
Because the impartiality of the hearing officer is a legal requirement, the notification of no prior
involvement should always be included in Letters provided to taxpayers and be supported by
evidence in the case file. Had the templates been consistently used, the impartiality statements
would have been in all Determination and Decision Letters. While the lack of impartiality
statements in the Letters or evidence in the Appeals case files appears to be an oversight and
does not necessarily indicate a lack of impartiality (we did not find hearing officers with prior
involvement with the unpaid tax), hearing officers are required to certify their impartiality.
In addition, hearing officers should have evidence in the case files to support statements,
including impartiality, in the Letters provided to taxpayers. Because the case file is used by the
courts for judicial review, there should be some evidence to support the hearing officer’s
statement of impartiality other than just the statement itself. Without case file support, there is
no evidence to inform the taxpayer and any reviewing court that the hearing officer had no prior
involvement with the unpaid tax liability under review and, therefore, could provide an impartial
hearing. We also reported this condition last year. The Appeals corrective action emphasized
and provided guidance for including impartiality statements in Letters provided to taxpayers, but
the corrective action did not address the issue of including supporting evidence for impartiality
statements in case files.
Appeals officials responded that, although hearing officers were to include impartiality
statements in their Determination and Decision Letters, the fallback was the initial Appeals
contact letter. We reviewed this initial contact letter and determined it did not include an
impartiality statement by the assigned hearing officer. The letter informed the taxpayer of the


20
   In our original sample of 80 closed CDP cases, 2 cases should have had Determination Letters issued, but the
Letters were not included in the files; 17 cases were withdrawn; and 5 case files were not provided to us. We did
not include these 24 cases in this test. None of the remaining 56 cases (43 + 13) contained taxpayer waivers of the
impartiality requirement; therefore, these 56 cases should have contained impartiality statements.
21
   In our original sample of 80 closed EH cases, 7 cases should have had Decision Letters issued, but the Letters
were not included in the files; 12 cases were withdrawn; and 8 case files were not provided to us. We did not
include these 27 cases in this test. None of the remaining 53 cases contained taxpayer waivers of the impartiality
requirement; therefore, these 53 cases should have contained impartiality statements.
                                                                                                             Page 9
                            The Ofice of Appeals Should Continue to Strengthen and
                            Reinhrce Procedures for Collection Due Process Cases



right to an impartial hearing officer and asked the taxpayer to inform the hearing officer if the
taxpayer believed the hearing officer was previously involved. However, the Appeals contact
letter did not include any statement from the hearing officer that, to the best of the hearing
officer's knowledge, he or she had not been previously involved in the taxpayer's case and was
thus impartial. After our review, Appeals provided us with a revised copy of the contact letter
which did contain a statement by the hearing officer regarding his or her impartiality. This new
letter was implemented in November 2005, so it was not yet in use during the time of our review.

Recommendation
Recommendation 2: The Chief, Appeals, should emphasize the importance of case files
containing evidence to support the impartiality statement of the assigned hearing officer.
       Management's Response: IRS management agreed with the recommendation and will
       revise their written guidance to include additional examples and clearer documentation
       requirements. In addition, hearing officers will receive training for the revisions.

Procedures for Suspension of Collection Activity Should Continue to
Be Strengthened to Ensure Taxpayer Rights Are Protected
A CDP hearing request is held in response to an action taken by the Collection function. When a
CDP hearing request is received timely, collection activity is suspended from the date the
hearing request is received until (1) the date the Appeals determination becomes final or (2) the
date the hearing request is withdrawn by the taxpayer.22 As the initial recipient of the taxpayer's
hearing request, the Collection function enters computer coding on the taxpayer's account to start
the collection activity suspension period before transferring the case to Appeals. Later, when
Appeals returns the case after the CDP hearing, the Collection function enters computer coding
on the taxpayer's account to restart collection activity. These computer codes are used to help
communicate to IRS employees when suspension of collection activity is in effect and to
recalculate the expiration date for the collection statute. This applies only to CDP cases because
there is no requirement to suspend collection activity for EH cases.
One of the first tasks of the hearing officer is to verify the timeliness of the hearing request and




22   C.F.R.   44 301.6320-1(g) and 301.6330-1(g) (2002).
                                                                                              Page 10
                     The M i c e of Appeals Should Continue to Strengthen and
                     Reinforce Procedures for Collection Due Process Cases



1                                                                                                 I

L- --
P                                                                                We estimated
 102 CDP cases in our sample period did not have collection activity suspended for the duration
 of the Appeals hearing.
Although the remaining CDP cases in our sample had the appropriate computer coding for
suspending collection activity on the taxpayers' accounts, 24 case files did not contain support to
indicate the hearing officer had verified the date collection activity was suspended. We
estimated 2,427 CDP cases did not contain the verification support in the case files. Conducting
this verification for every CDP hearing can help ensure this process consistently occurs to protect
taxpayer rights.
We also identified 11 cases in which the codes were not entered at the end of the hearing process
to restart collection activity. This meant that collection activity remained suspended even though
the IRS had the right to resume collection activities. We estimated 1,113 CDP cases in our
sample period did not have proper coding on the taxpayers' accounts to restart collection
activity.
In its response to our previous report, beginning in December 2005, Appeals planned to assume
responsibility for entering the computer codes to begin suspending and restarting collection
activity on taxpayers' accounts. However, Appeals later amended its corrective action to involve
only the entering of the computer code for restarting collection activity. We agree with Appeals'
amended corrective action because the Collection function has initial control of the case when
the taxpayer requests a CDP hearing. Appeals is in a better position to know when the hearing
concluded and thus to enter the computer code for restarting collection activity. Although this
new process should decrease the possibility of missing the input of computer codes for
suspending collection activity, it does not minimize the importance of Appeals verifying the
initial coding when hearings begin. Appeals should still verify the suspension of collection
activity is in place at the beginning of the CDP hearing, to ensure taxpayer rights are protected.
If an error is identified, Appeals should have an internal process to immediately correct the
taxpayer's account, which would prevent IRS employees from inappropriately attempting a
collection action.

Recommendation
Recommendation 3: The Chief, Appeals, should ensure hearing officers verify suspension of
collection activity at the beginning of CDP hearings by consistently providing support in case
files that this action occurred. In addition, the Chief, Appeals, should ensure Appeals has a
process to immediately correct taxpayers' accounts when hearing officers identify missing
computer coding for suspension of collection activity.


                                                                                          Page 11
                        The OHice of Appeals Should Continue to Strengthen and
                        Reinibrce Procedures for Collection Due Process Cases



     Mananement's Response: IRS management agreed with the recommendation and will
     revise their written guidance as well as update their templates. Hearing officers will receive
     training for the revisions. In addition, Appeals will develop and implement a procedure to
     immediately correct taxpayer accounts when hearing officers identify missing computer
     coding for suspension of collection activity.

Determination and Decision Letters Met Minimum Requirements but
Need Further Support in Case Files
Appeals procedures required that the Determination and Decision Letters include a clear and
detailed explanation of the basis for the hearing officer's decision. At a minimum, each Letter
must include:
     1. Verification that the requirements of applicable laws and administrative procedures have
        been met.
     2. Issues raised by the taxpayer.
     3. Determination that the proposed collection action balances the need for the efficient
        collection of taxes with the legitimate concern of the taxpayer that any collection action
        be no more intrusive than necessary.
All of the 43 CDP Determination Letters, 13 CDP Summary Notices of Determination, and
53 EH Decision Letters we reviewed met Appeals' minimum standard for documentation in
Letters provided to taxpayers. However, 11 CDP and 8 EH case files did not contain supporting
evidence for the hearing officer's verification that laws and regulations were met, and 2 CDP and
6 EH case files did not contain supporting evidence for the hearing officer's verification of
balanced collection action.13 These case files contained standardized statements listing the
requirements, and that they were met, but no supporting information specific to the case to
indicate the hearing officer actually researched the case.
Appeals staff suggested that the administrative files maintained by the Collection function might
contain additional supporting documentation. Based on this suggestion, we decided to review
the administrative files for the cases discussed above. We received and reviewed the
administrative files for 16 (7 CDP and 9 EH) of the 22 cases that did not have sufficient
supporting evidence in the case file for the hearing officer's verification that laws and regulations
were met andlor of balanced collection action.24 We determined that 14 of the 16 files contained

23
   Our sample identified 22 cases (12 CDP and 10 EH cases) without the required supporting documentation in the
file. Ofthose 22 cases, 54      7  and 4 EH cases) were missing documentation to support both types of exceptions
we identified.
' w e ordered administrative files for all 22 CDP and EH cases for which the Appeals case files did not contain
sufficient supporting evidence. However, we did not receive six of the administrative files; two files were charged
out to other employees, two contained no CDP documentation, and two showed unserviceable requests.
                                                                                                           Page 12
                         The Omce of Appeals Should Continue to Strengthen and
                         Reintbrce Procedures for Collection Due Process Cases



the information that was missing from the Appeals files, while 2 CDP files did not contain
supporting evidence for the hearing officer's verification that laws and regulations were met.
We estimated the Appeals case files for 1,113 CDP and 363 EH cases in our sample period did
not contain supporting evidence for the hearing officer's verification that laws and regulations
were met and the Appeals case files for 203 CDP and 273 EH cases did not contain supporting
evidence for the hearing officer's verification of balanced collection action. We estimated that
neither the Appeals case files nor the administrative files for 203 CDP cases in our sample period
contained supporting evidence for the hearing officer's verification that laws and regulations
were met.




the hearing officer did not hlly address the issues raised by the taxpayer.
The need to adequately support the actions and decisions of the hearing officer was discussed in
Appeals procedures, which required hearing officers to "Thoroughly document these three areas
in the attachment to the determination letter, as the court will evaluate Appeals through our
documented actions in determining whether to sustain appeal^."^^ Without sufficient support in
the case file, a court will be unable to verify the actions taken by the hearing officer to determine
if they were appropriate. Appeals personnel believe additional supporting documentation may
be in another set of files maintained by Compliance hnction employees, which was not included
in our review.

Recommendation
Recommendation 4: The Chief, Appeals, should develop a process to ensure all actions
taken by hearing officers to support decisions and verifications contained in Letters to taxpayers
are clearly documented.
     Manaaement's Response: IRS management agreed with the recommendation and will
     revise their written guidance to include the requirement to document all actions taken to

25
  Internal Revenue Manual 8.7.2.3(17). The three areas referred to in the procedure are those listed at the beginning
of this section.




                                                                                                           Page 13
                The Office of Appeals Should Continue to Strengthen and
                 Reinforce Procedures for Collection Due Process Cases



support decisions and verifications contained in Letters to taxpayers. In addition, hearing
officers will receive training for this requirement.




                                                                                       Page 14
                       The Office of Appeals Should Continue to Strengthen and
                        Reinforce Procedures for Collection Due Process Cases



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The objective of this audit was to determine whether the IRS complied with the provisions of
26 U.S.C. Sections (§§) 6320 and 63301 when taxpayers exercised their rights to appeal the filing
of a lien or the intent to levy. To accomplish this objective, we:
I.      Determined whether any new procedures or processes had been developed since the prior
        TIGTA statutory review. This involved interviews with Appeals officials to obtain
        documentation supporting the implementation of corrective actions to prior TIGTA audit
        reports and other procedural or process changes.
II.     Determined whether Appeals’ CDP and EH case files could be located and contained
        minimum documentation for a hearing.
        A. Obtained a computer extract from the Appeals Centralized Database System (ACDS)2
           file maintained at the TIGTA Data Center Warehouse3 of CDP and EH cases closed
           between March 1 and July 31, 2005. We validated the computer extract using
           information from the TIGTA Data Center Warehouse, reviewed appropriateness of
           data within fields requested, and compared population totals to information obtained
           from Appeals officials.
        B. Selected, requested Appeals to provide, and reviewed a sample of 80 CDP and 80 EH
           case files and determined whether the case files could be located and contained
           minimum documentation for a CDP or an EH hearing.
             1. Selected statistical attribute samples of 80 CDP cases (from a population of
                8,089 cases) and 80 EH cases (from a population of 3,628 cases) based on a
                confidence level of 90 percent, a precision rate of ±5.5 percent, and an expected
                error rate of 10 percent.
             2. Requested and determined whether Appeals could provide the sample case files.
                We discussed exceptions with Appeals officials to confirm and determine causes.
                After confirmation, we estimated the number of potential exceptions within the
                population.



1
  26 U.S.C. §§ 6320 and 6330 (Supp. III 2000).
2
  The ACDS is a computerized case control system used to control and track cases throughout the appeal process.
3
  The TIGTA Data Center Warehouse stores taxpayer data and allows auditors to query and download data needed
for audit work.
                                                                                                        Page 15
                        The Office of Appeals Should Continue to Strengthen and
                         Reinforce Procedures for Collection Due Process Cases



             3. For each sample case file received, reviewed to determine whether the file
                contained the minimum documentation to support a CDP or an EH hearing, which
                included Notice of Intent to Levy (Letter 1058/LT11) and/or Notice of Federal
                Tax Lien Filing and Your Right to a Hearing Under IRC4 6320 (Letter 3172);
                Request for a Collection Due Process Hearing (Form 12153) or similar taxpayer
                request; ACDS Case Summary Card; ACDS Case Activity Record; Appeals
                Transmittal and Case Memo (Form 5402); Notice of Determination Concerning
                Collection Action(s) Under Section 6320 and/or 6330 (Letter 3193/3194);
                Summary Notice of Determination, Waiver of Right to Judicial Review of a
                Collection Due Process Determination, and Waiver of Suspension of Levy Action
                (Form 12257); Decision Letter Concerning Equivalent Hearing Under Section
                6320 and/or 6330 of the Internal Revenue Code (IRC) (Letter 3210); transcript of
                the taxpayer’s account; and an Integrated Collection System or Automated
                Collection System history.5 We discussed exceptions with Appeals officials to
                confirm and determine causes. After confirmation, we estimated the number of
                potential exceptions within the population.
III.     Determined whether CDP and EH cases were misclassified (should have been EH or
         CDP).
         A. Using the samples selected in Step II.B.1.; Internal Revenue Code §§ 7502/7503
            requirements;6 and procedures in Internal Revenue Manual sections
            5.1.9.3.2.1/5.19.8, reviewed ACDS, case files, and tax account transcript information
            to determine whether the taxpayers’ hearing requests were received timely or late and
            were properly classified.
         B. Discussed exceptions with Appeals officials to confirm and determine causes. After
            confirmation, we estimated the number of potential exceptions within the population.
IV.      Determined whether Appeals was in compliance with 26 U.S.C. §§ 6320 and 6330 when
         handling CDP and EH hearing requests.
         A. Using the samples selected in Step II.B.1., determined whether the items listed below
            were addressed by the hearing officer.7




4
  “IRC” is the Internal Revenue Code.
5
  The Integrated Collection System provides workload management, case assignment/tracking, inventory control,
electronic mail, case analysis tools, and management information capabilities to support tax collection fieldwork.
The Automated Collection System is a telephone contact system through which telephone assistors collect unpaid
taxes and secure tax returns from delinquent taxpayers that have not complied with previous notices.
6
  26 U.S.C. §§ 7502 and 7503 (Supp. III 2000).
7
  Hearing officers are either Appeals officers or settlement officers.
                                                                                                           Page 16
                           The Office of Appeals Should Continue to Strengthen and
                            Reinforce Procedures for Collection Due Process Cases



                1. The taxpayer was provided only one hearing for the tax period8 related to the
                   unpaid tax specified in the lien/levy notice. [26 U.S.C. §§ 6320(b)(2) and
                   6330(b)(2)]
                2. The taxpayer was provided with an impartial hearing officer or waived this
                   requirement. [26 U.S.C. §§ 6320(b)(3) and 6330(b)(3)]
                3. The hearing officer obtained verification that the requirements of any applicable
                   law or administrative procedure were met. [26 U.S.C. § 6330(c)(1)]
                4. The taxpayer was allowed to raise issues at the hearing relating to the unpaid tax
                   or the proposed lien or levy action, including appropriate spousal defenses,
                   challenges to the appropriateness of collection activities, offers of collection
                   alternatives, or the underlying liability. [26 U.S.C. § 6330(c)(2)]
                5. The hearing officer made a determination after considering whether any proposed
                   collection action balances efficient tax collection with the taxpayer’s legitimate
                   concern that any collection action be no more intrusive than necessary.
                   [26 U.S.C. § 6330(c)(3)]
                6. Determined whether Appeals complied with current Internal Revenue Manual
                   guidelines for documenting case actions.
           B. Discussed exception cases with Appeals officials to confirm and determine causes.
              After confirmation, we estimated the number of potential exceptions within the
              population.
           C. For those CDP and EH sample Appeals case files missing required supporting
              documentation, obtained and reviewed the related administrative files from the
              Collection function to determine whether additional supporting documentation was
              maintained. We estimated the number of potential exceptions within the population.




8
    The tax period is a measure of time for which a tax return is required to be filed.
                                                                                               Page 17
                  The Office of Appeals Should Continue to Strengthen and
                   Reinforce Procedures for Collection Due Process Cases



                                                                             Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Michael E. McKenney, Director
Curtis W. Hagan, Director
Carl L. Aley, Director
Aaron R. Foote, Audit Manager
Daniel M. Quinn, Acting Audit Manager
Janice M. Pryor, Acting Audit Manager
Stephanie K. Foster, Lead Auditor
Tom J. Cypert, Senior Auditor
Carolyn D. Miller, Auditor




                                                                                    Page 18
                  The Office of Appeals Should Continue to Strengthen and
                   Reinforce Procedures for Collection Due Process Cases



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Chief, Appeals AP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Appeals AP




                                                                       Page 19
                         The Office of Appeals Should Continue to Strengthen and
                          Reinforce Procedures for Collection Due Process Cases



                                                                                                Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
      •    Taxpayer Rights and Entitlements – Potential; 7,281 closed CDP cases either could not
           be located by Appeals; were not properly classified; or did not contain sufficient
           documentation, a sufficient impartiality statement, and/or verification of the suspension
           of collection activity (see pages 4, 6, 8, 10, and 12).

Methodology Used to Measure the Reported Benefit:
Using a computer extract from the ACDS,1 we identified a population of 8,089 CDP cases closed
between March 1 and July 31, 2005. We selected a statistical sample of 80 CDP cases and found
72 (90 percent) could not be located by Appeals; were not properly classified; or did not contain
sufficient documentation, sufficient impartiality statement, and/or verification of the suspension
of collection activity. We projected the results of our sample, using a 90 percent confidence
level and a precision rate of ±5.49 percent, and estimated 7,281 CDP cases could affect taxpayer
rights and entitlements.
The 72 CDP cases were comprised of the following:
      o There were 66 CDP case files that either could not be located by Appeals or did not
        contain documentation sufficient to determine if the IRS complied with the guidelines
        and procedures to protect taxpayer rights when appealing lien and levy actions
        (see page 4). Using a 90 percent confidence level, we estimated:




1
    The ACDS is a computerized case control system used to control and track cases throughout the appeal process.
                                                                                                           Page 20
-     P                   -                                                                                                 -

                      The W i c e of Appeals Should Continue to Strengthen and
                      Reinforce Procedures for Collection Due Process Cases



     Reason CDP Case Could Not Be Verified             Number of                Error          Estimate of Precision of

      Case file not provided
     -. -   -   --   - - - --   - -   .- - - -- -- -      -
                                                              5         -   -
                                                                                    6.25%                 506        *4.43%
      Case file received did not include complete
                                                              14
     -
      hearing reauest
                  -
            . " - I          -     _                                    -   ----              .-   --    - - - - ---    -   -
      Case file received did not include envelope
                                                              44                        55%             4,449         *9.1%
     used to- -mail -
      - -
                    hearing
                       .--  %-.
                              reauest
      Case file received did not include-
      notification
    ---    .- --_
                   of...levv
                          .-
                             or lien      .---         -           --   ---     -   -    ---   -   --    - - -   -   --   --


      Case file received did not include
                                                              2                     2.5%                 203         i2.86%
      documentation of Appeals' determination
                                        Totals           66*            82.5%"          6.674*         *6.95%
                                                    (*) Column does not total because some case files were




    Using a 90 percent confidence level and a precision of *2.03 percent, we estimated
    102 cases were misclassified as CDP cases.
o There were 7 CDP case files (8.75 percent) that did not contain an impartiality statement
  in the Determination Letters or Summary Notices of Determination (see page 9). Using a
  90 percent confidence level and a precision of *5.17 percent, we estimated 708 cases did
  not-include an impartiality statement in the ~eterminationLetters or Summary Notices of
  Determination.
o There were 25 CDP cases (3 1.25 percent) that had 1 of the following errors: no
  suspension of collection activity or no documentation to indicate verification of the
  timeliness of the hearing request and the date suspension of collection activity should
  begin (see pages 10 and 11). Using a 90 percent confidence level, we estimated:
     Reason Suspension of Collection Activity          Number of                Error          Estimate of Precision of


      activity was not input on taxpayer's
      account -.- .- --
     --     - --          ---      -  - - .-     -- - -   -. .-...- -       - - - --- - -.. .
                                                                                            - -- . - -.-- --     -----         -


      Case file did not contain documentation to
      indicate verification of the timeliness of
                                                                                                        2,427        h8.39%
      the hearing request and the date susvension



    -                 -                             (*) Column does not total due to rounding.
                                                                    P




o There were 12 CDP cases (15 percent) for which the case file did not contain sufficient
  documentation to support the hearing officer's verification that laws and regulations were
  met and/or the hearing officer's verification of balanced collection action (see page 12).
  Using a 90 percent confidence level, we estimated:

                                                                                                                 Page 21
                      The OiWce of Appeals Should Continue to Strengthen and
                      Reinforce Procedures for Collection Due Process Cases



            Area With Insufficient Supporting        Number of   Error     Estimate of Precision of

        Verification that laws and
        rermlations were met
        Verification of balanced collection action      2          2.5%          203       *2.86%
                                           Totals      12*         15%*       1,214*       *6.53%



    o There were 2 CDP cases (2.5 percent) for which neither the Appeals case file nor the
      administrative file contained sufficient documentation to support the hearing officer's
      verification that laws and regulations were met (see page 12). Using a 90 percent
      confidence level and a precision of *2.86 percent, we estimated that for 203 CDP cases
      neither the Appeals case file nor the administrative file contained sufficient
      documentation to support the hearing officer's verification that laws and regulations were
      met.

Type and Value of Outcome Measure:
       Taxpayer Rights and Entitlements - Potential; 3,356 closed EH cases either could not be
       located by Appeals, were not properly classified, or did not contain sufficient
       documentation andlor sufficient impartiality statement (see pages 4,6, 8, and 12).

Methodoloay Used to Measure the Reported Benefit:
Using a computer extract from the ACDS, we identified a population of 3,628 EH cases closed
between March 1 and July 3 1,2005. We selected a statistical sample of 80 EH cases and found
74 (92.5 percent) could not be located by Appeals, were not properly classified, or did not
contain sufficient documentation andlor sufficient impartiality statement. We projected the
                                                                                 *
results of our sample, using a 90 percent confidence level and a precision rate of 4.79 percent,
and estimated 3,356 EH cases could affect taxpayer rights and entitlements.
The 74 EH cases were comprised of the following:
   o There were 70 EH case files that either could not be located by Appeals or did not
     contain documentation sufficient to determine if the IRS complied with the guidelines
     and procedures to protect taxpayer rights when appealing lien and levy action
     (see page 4). Using a 90 percent confidence level, we estimated:




                                                                                          Page 22
- -
                       The m c e of Appeals Should Continue to Strengthen and
                       ReinBrce Procedures for Collection Due Process Cases



 Reason EH Case Could Not Be Verified
                                            Number of         Error         Estimate of Precision of
     for Meeting All Guidelines and        Sample Cases        Rate
                                                                           Total Cases Estimate
                Procedures                                                                                                      P


  Case file not urovided                         8                 10%              363       *5.46%
  Case file received did not include
                                                21             26.25%               953          *8%
  complete hearing request
  Case file received did not include
                                                47             58.75%             2,132       *8.95%
  envelope used to mail hearing request
  Case file received did not include
                                                55             68.75%             2,495       *8.43%
  notification of levy or lien
  Case file received did not include
                                                 7              8.75%               318       *5.14%
  documentation of A D D ~ ~determination
                                 ~s'
                                  Totals       70*             87.5%*            3,175*      &6.01%
                                          (*) Column does not total because some case files were
                                          missing more than one of the four kev documents.
                                                            '        Y"
             *,,   r    :-5   "'3   W&".,?#,   -rmJa ,     -;**,   ~178:7 ~ A J ~ l ~'"-
                                                                                     ~,p~            ma-
                                                                                                            *.   *'   :,    '    "   *    %




   Using a 90 percent confidence level and a -precision of *2.02 percent, we estimated
   46 cases were misclassified as EH cases.
o There were 4 EH case files (5 percent) that did not contain an impartiality statement in
  the Decision Letters (see page 9). Using a 90 percent confidence level and a precision of
  *3.96 percent, we estimated 182 cases did not include an impartiality statement in the
  Decision Letters.
o There were 10 EH cases (12.5 percent) for which the case file did not contain sufficient
  documentation to support the hearing officer's verification that laws and regulations were
  met andlor the hearing officer's verification of balanced collection action (see page 12).
  Using a 90 percent confidence level, we estimated:
          Area With Insufficient Supporting                Number of                        Error          Estimate of Precision of

    Verification that laws and regulations were
                                                                    8                          10%                         363           *5.46%
    met
    Verification of balanced collection action                 6                7.5%             273        *4.79%
                                       Totals                 lo*             12.5%*            454*        *6.01%
                                                         (*) Column does not total because some case files were
                                                         missing sufficient documentation in both areas.                                 -




                                                                                                                                     Page 23
                    The Office of Appeals Should Continue to Strengthen and
                     Reinforce Procedures for Collection Due Process Cases



Type and Value of Outcome Measure:
   •   Increased Revenue – Potential; 1,113 closed CDP cases did not have the expiration date
       for the collection statute recalculated (see page 10).

Methodology Used to Measure the Reported Benefit:
Using a computer extract from the ACDS, we identified a total population of 8,089 CDP cases
closed between March 1 and July 31, 2005. We selected a statistical sample of 80 CDP cases
and found 11 cases (13.75 percent) that did not have the expiration date for the collection statute
recalculated, which could affect the collection of tax revenue. Using a 90 percent confidence
level and a precision of ±6.3 percent, we estimated 1,113 cases did not have the expiration date
for the collection statute recalculated.




                                                                                           Page 24
     The Office of Appeals Should Continue to Strengthen and
      Reinforce Procedures for Collection Due Process Cases



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 25
The Office of Appeals Should Continue to Strengthen and
 Reinforce Procedures for Collection Due Process Cases




                                                     Page 26
The Office of Appeals Should Continue to Strengthen and
 Reinforce Procedures for Collection Due Process Cases




                                                     Page 27
